           FEDERAL ELECTION COMMISSION 

            OFFICE OF INSPECTOR GENERAL 





2010 Follow-up Audit of Procurement and Contract Management 

                          June 2011 

                 Audit Report No. OIG-10-02

                    Cherry, Bekaert & Holland, L.L.P.
                    The Firm of Choice.
                      www.cbh.com                                1934 Old Gallows Road –Suite 400
                                                                            Vienna, Virginia 22182
                                                                              Phone 703.506.4440
                                                                               Fax 703.506.8817




June 6, 2011



Ms. Lynne A. McFarland
Inspector General
Federal Election Commission
999 E Street, NW
Washington, DC 20463

Subject:       2010 Follow-up Audit Report of Procurement and Contract Management

Dear Ms. McFarland:

In accordance with the terms of the task order, Cherry Bekaert & Holland LLP conducted a
follow-up audit of the findings and recommendations included in the 2008 Performance
Audit of Procurement and Contract Management for the purpose of determining the status of
the corrective actions for the findings noted in these reports.

The methodology applied was a risk-based selection of various purchase instruments for the
period September 2010 through May 2011. We interviewed key personnel, reviewed
relevant documentation and specifically followed up on FEC’s efforts to address the
findings and recommendations contained in the 2008 report.

We conducted this follow-up audit in accordance with Government Auditing Standards and
our findings, recommendations, and management’s responses are contained herein. This
report is intended to meet the purpose described above and should not be used for other
purposes.

We appreciate the opportunity to have served the FEC Office of Inspector General.

Very truly yours,



John Montoro, Partner
                                    2010 FOLLOW-UP AUDIT OF 

                             PROCUREMENT AND CONTRACT MANAGEMENT


                                      FEDERAL ELECTION COMMISSION


                                    AUDIT REPORT NUMBER OIG-10-02





Cherry, Bekaert & Holland, L.L.P.
1934 Gallows Road – Suite 400
Vienna, VA 22182
www.cbh.com
                                                                           Contents                                                                                           
EXECUTIVE SUMMARY.................................................................................................................................
                                                                                                                                                     1
 

SUMMARY OF FINDINGS, RECOMMENDATIONS AND MANAGEMENT CONCURRENCE..................................
                                                                                                    3
 

BACKGROUND.............................................................................................................................................
                                                                                                                                                          7
 

OBJECTIVES, SCOPE AND METHODOLOGY....................................................................................................
                                                                                                                                        8
 

                                                                                                                                  
DETAILED FINDINGS AND RECOMMENDATIONS..........................................................................................10

                                      
   Finding 1:  Procurement Directive Has Not Been Approved and Implemented (OIG 08‐02 –   Prior
 
                                                                                                                                                                
   Recommendation 1a) .......................................................................................................................................10

                                                                                                              
   Finding 2:  Pre‐Award Administration Needs Improvement (OIG 08‐02 – Prior Recommendation 1a)............11

                                                                                                
   Finding 3:  Inadequate Monitoring of OCFO Internal Controls Over Procurement Activities (OIG 08‐02 ‐ Prior
 
                                                                                                                                                                
   Recommendation 1b) .......................................................................................................................................18

   Finding 4:  Lack of Human Capital Plan to Address Risks to Procurement Function (OIG 08‐02‐ Prior
 
                                                                                                                                                                
   Recommendation 1c)........................................................................................................................................20

                          
                                                                                                                    
   Finding 5:  Modification Actions Not Approved by CFO (OIG 08‐02 ‐ Prior Recommendation 2a) ...................22

   Finding 6:  COTR Training Requirements Were Not Monitored in a Timely Manner (OIG 08‐02 ‐ Prior
 
                                                                                                                                                                
   Recommendation 3a) .......................................................................................................................................23

   Finding 7:  Contract Monitoring Activity and Tools Were Not Effective (OIG 08‐02 ‐ Prior Recommendation 
                                                                                                                                                                              
   3a).....................................................................................................................................................................25

       
   Finding 8:  Procurement Office Provides Limited Formal Oversight of COTRs (OIG 08‐02 ‐ Prior
 
                                                                                                                                                                
   Recommendation 3b) .......................................................................................................................................27

   Finding 9:  Lack of Independent Validation for Contract Data Reported in FPDS (OIG 08‐02 ‐ Prior 
                                                                                                                                                             
   Recommendation 4a & b).................................................................................................................................28

                              
   Finding 10: Lack of Guidance Related to Time and Materials and Labor‐Hour Contracts (OIG 08‐02 ‐ Prior
 
                                                                                                                                                                
   Recommendation 5a) .......................................................................................................................................31

   Finding 11:  Contract Close‐Out Procedures Are Not Compliant With the FAR (OIG 08‐02   ‐ Prior 
                                                                                                                                                                
   Recommendation 6a) .......................................................................................................................................32

   Finding 12:  Lack of Adherence With Information Technology Management Reforms (OIG 08‐02 ‐ Prior
 
                                                                                                                                                                
   Recommendation 7a) .......................................................................................................................................34

   Finding 13:  Blanket Purchase Agreements Are Not Used in Accordance With FAR and OMB Guidance (OIG 
                                                                                                                                                        
   08‐02 – Prior Recommendation 8a)..................................................................................................................36

                                      
   Finding 14:  Procedures to Ensure Contract Files Are Complete Need Improvement (OIG 08‐02 – Prior
 
                                                                                                                                                                
   Recommendation 9a) .......................................................................................................................................40

                                                                                                                                                  
   ATTACHMENT‐ PRIOR FINDING STATUS ...........................................................................................................43

                          FOLLOW-UP AUDIT OF PROCUREMENT

                             AND CONTRACT MANAGEMENT


                             FEDERAL ELECTION COMMISSION 


                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG) of the Federal Election Commission (FEC) contracted
with Cherry, Bekaert & Holland, L.L.P. (CBH) to perform a follow-up audit of procurement
and contract management policies and procedures used by the FEC and to determine whether
the FEC is complying with the policies and procedures, and applicable federal acquisition
laws and regulations. The previous audit was conducted by Regis & Associates, PC. and
released in September 2009.

The previous audit included a review of approximately $27.6 million of various types of
procurement instruments (e.g. contracts, purchase orders, blanket purchase agreements, and
one specified interagency agreement) awarded/executed by the Procurement and Contracting
Office in fiscal years 2006 through 2008. The follow-up audit selected approximately $9
million of various procurement instruments awarded/executed by the FEC from June 1, 2009
through September 30, 2010 for testing; the following table illustrates the total number and
dollar values1 of procurement instruments selected for testing, compared to the population
available for testing.

                                                           Total Sample Dollar
       Procurement Type               Items Sampled                            Population Dollar Values
                                                                  Values
Blanket Purchase Agreement                   4                   $ 1,192,143            $ 3,448,223
Purchase Order                                5                    $ 195,279              $ 713,297
Delivery Order                               7                   $ 5,540,691          $ 10,119,799
Contracts                                    3                   $ 1,758,018            $ 2,845,529
Interagency Agreement                        1                     $ 250,000            $ 1,339,381
             Totals                          20                  $ 8,936,131          $ 18,466,229

The results of our follow-up audit testing show that the agency has made progress towards
addressing the recommendations described in the prior audit report. Specifically, progress
has been made towards addressing issues related to: accuracy of information reported in
Federal Procurement Data System - Next Generation (FPDS-NG), procurement file storage
and documentation of Central Contractor Registration (CCR) registration. However, the
majority of the recommendations from the prior audit remain open. Twelve (12) of fifteen
(15) previous recommendations are still open and a number of new recommendations have
been added. The status of prior recommendations is summarized in the section titled Prior
Findings Status, starting on page 43.

Based on our observations during this follow-up audit, we do not believe that the existing
policies contain adequate guidance to ensure that procurement activities: are in compliance
1
 These values represent the obligations recorded in FEC financial systems as provided by agency staff. Cherry,
Bekaert & Holland, LLP did not audit the values and did not perform additional procedures to determine
whether the values were materially correct.


                                                      1

with applicable regulations and internal policies, are adequately documented in files, and are
making the best use of agency funds designated for procurement. Consistent with the
findings of the prior audit, the following areas need improvement: documentation of pre-
award activities, evidence of approval for modifications, oversight of Contracting Officer’s
Technical Representative (COTR) contract monitoring, contract close-out compliance, IT
management reforms, process guidance for using Blanket Purchase Agreements (BPA), and
overall contract file administration. In addition, there is a lack of a human resource
contingency plan to address the risk resulting from having one full time contracting officer in
the agency.

We acknowledge that the current fiscal pressure on the agency makes it challenging for the
Procurement Office to implement some of the corrective actions. We believe that it is
important for the Procurement Office to have adequate resource capacity in order to ensure
the effective and efficient management of procurement activities.

Our fourteen (14) findings and twenty-nine (29) recommendations are summarized in the
section titled Summary of Findings, Recommendations and Management Concurrence,
starting on page 3.




                                              2

           SUMMARY OF FINDINGS, RECOMMENDATIONS AND MANAGEMENT CONCURRENCE

Findings                                           Recommendations                                                                    Management Concurrence
1.            Procurement Directive Has Not Been   We recommend that the OCFO:
              Approved and Implemented
                                                   1a. Complete the revisions to procurement policies and ensure that the               1.   Management concurs
              (Repeat finding)                         procurement directive is finalized and issued within FY 2011.

2.            Pre-Award Administration Needs       We recommend that the Procurement Office:
              Improvement
                                                   2a. Implement guidance to describe when acquisition plans are required and
              (Repeat finding)                         how they should be documented.

                                                   2b. Enforce the procedures contained in the ProcPro addressing the preparation
                                                       and documentation of SOWs.
                                                                                                                                        2.   Management concurs in part
                                                   2c. Prepare and update a procurement plan, for procurements with an extended
                                                       service delivery period, technical complexity, or changing technological
                                                       options for service solutions, throughout the procurement lifecycle to
                                                       ensure that the agency meets its needs in the most effective, economical
                                                       and timely manner.

                                                   2d. Ensure that the basis for contractor selection be clearly indicated in all
                                                       procurement files.

3.            Inadequate Monitoring of OCFO        We recommend that the Procurement Office in coordination with the OCFO:
              Internal Controls Over Procurement
              Activities                           3a. Fully implement internal control procedures designed to ensure compliance
                                                       with FAR, OMB and internal FEC policies and procedures.                          3.   Management concurs in part
              (Repeat finding)
                                                   3b. Establish a process to periodically assess the effectiveness of the internal
                                                       controls related to procurement functions.




                                                                              3
                                                                                  

         SUMMARY OF FINDINGS, RECOMMENDATIONS AND MANAGEMENT CONCURRENCE

4.          Lack of Human Capital Plan to       We recommend that the FEC:
     	




            Address Risks to Procurement
            Function                            4a.	 Implement a human capacity contingency plan based on current staffing
                                                     levels. While filling the Senior Contract Specialist position would be the
            (Repeat finding)	                        simplest way to address the risk, a contingency plan must be in place until
                                                     such time as that position is filled. The plan should identify internal or     4.   Management concurs in part
                                                     external sources to fulfill CO responsibilities. For internal resources, the
                                                     plan should identify how responsibilities will be shared in order to provide
                                                     the acting CO the time to perform the procurement duties. Any special
                                                     training should be identified and completed to ensure that the plan can be
                                                     implemented on short notice.

5.          Modification Actions Not Approved   We recommend that the Procurement Office:
     	




            By CFO
                                                5a. In coordination with the OCFO, increase monitoring efforts to ensure that
            (Modified repeat finding)               current approval policies and procedures are followed.                          5.   Management concurs
                                                5b.	 Review the current approval policy and revise the procedures to clarify the
                                                     fact that CFO approval may not be required for administrative actions.

6.          COTR Training Requirements Were     We recommend that the Procurement Office:
     	




            Not Monitored in a Timely Manner
                                                6a. Utilize the process established by the Director of Procurement, by using the    6.   Management concurs
            (Repeat finding)                        schedule tracking COTR training requirements on a continuous basis, and
                                                    update the schedule as training certificates are received from COTRs.

7.          Contract Monitoring Activity and    We recommend that the Procurement Office:
     	




            Tools Were Not Effective
                                                7a. Establish guidance requiring the use of formal monitoring plans for
            (Repeat finding)                        procurements, where appropriate.
                                                7b.	 Enforce the responsibilities assigned to COTRs related to contractor           7.   Management concurs
                                                     performance evaluations.
                                                7c.	 Implement policies to provide more guidance to COTRs with respect to
                                                     how procurements are to be monitored and what documentation should be
                                                     maintained in the files.




                                                                           4
                                                                               

      SUMMARY OF FINDINGS, RECOMMENDATIONS AND MANAGEMENT CONCURRENCE

8.       Procurement Office Provides Limited    We recommend that the Procurement Office:
         Formal Oversight of COTRs
                                                8a. Periodically hold meetings with each COTR to assess the monitoring
         (Repeat finding)                            effectiveness for their assigned procurements.                              8.   Management concurs

                                                8b. Review the COTR’s formal monitoring plan prior to a COTR starting to
                                                     monitor a given procurement.

9.       Lack of Independent Validation for     We recommend that the FEC:
         Contract Data Reported in FPDS
                                                9a. Implement periodic testing of FPDS data as part of the OCFO’s internal
         (New finding)                              controls monitoring program, and that the testing be conducted by someone    9.   Management does not concur
                                                    outside of procurement. Access to the Comprizon award data should not be
                                                    an issue as the CO can run the required reports with which the data can be
                                                    tested.

10.      Lack of Guidance Related to Time and   We recommend that the Procurement Office:
         Materials and Labor-Hour Contracts
                                                10a. Ensure that the FAR requirements for time-and-materials and labor-hour
         (Repeat finding)                            contracts are included in the training materials.                           10. Management concurs
                                                10b. Revise the ProcPro to incorporate specific guidance to ensure that COTRs
                                                     understand the requirements for how to monitor and approve payments on
                                                     T&M/labor-hour contracts.

11.      Contract Close-Out Procedures Are      We recommend that the Procurement Office:
         Not Compliant With the FAR
                                                11a. Revise the ProcPros to include procedures for closing out contracts which
         (Repeat finding)                            are complete, and reference the automated Comprizon closeout checklist.
                                                                                                                                 11. Management concurs
                                                11b. Continue to reduce the backlog of contracts requiring close-out by
                                                     performing close-out procedures in compliance with the FAR.
                                                11c. Develop a formal method of tracking which contracts are in need of close-
                                                     out as well as which contracts have been successfully closed-out.




                                                                           5
                                                                               

          SUMMARY OF FINDINGS, RECOMMENDATIONS AND MANAGEMENT CONCURRENCE

12.          Lack of Adherence With Information    We recommend that the FEC:
      	




             Technology Management Reforms         12a. FEC continue to improve the process that has been initiated since the last
                                                        audit by specifically identifying the core board members for the ITPRB and
             (Repeat finding)                           to include representation from Budget and Procurement.
                                                                                                                                       12. Management does not concur
                                                        ITPRB properly document the process by which these decisions are made
                                                        in the form of minutes or a summary of Board discussion and actions of
                                                        each meeting, and a clear and understandable list of project priorities that
                                                        have a direct link to budget allocations.

13.          Blanket Purchase Agreements Are Not   We recommend that the Procurement Office:
      	




             Used in Accordance With FAR and
             OMB Guidance                          13a. Coordinate with the Office of the Chief Financial Officer to establish
                                                        internal control procedures to conduct the annual review of BPAs.
             (Modified repeat finding)
                                                   13b. Revise procurement policies with specific procedures for BPAs to ensure        13. Management concurs
                                                        compliance with documentation requirements contained in the FAR.
                                                   13c. Implement procedures to address the strategies to maximize value from
                                                        BPAs consistent with guidance from the OMB (December 22, 2009
                                                        memorandum).
14.          Procedures to Ensure Contract Files   We recommend that the Procurement Office:
             Are Complete Need Improvement
                                                   14a. Enforce policies and procedures to ensure compliance with the FAR and
             (Modified repeat finding)                  internal FEC policies related to contract administration.
                                                   14b. Revise procurement policies to include guidance which establishes              14. Management concurs
                                                        procedures requiring procurement file checklists to be used.
                                                   14c. Revise the procurement file checklists to clarify which documents are
                                                        required to be in a file for a given procurement and which documents are
                                                        physically included in the file.




                                                                              6
                                                                                  

                                      BACKGROUND 


The Federal Election Commission (FEC) is an independent regulatory agency responsible for
interpreting, administering, enforcing and defending the Federal Election Campaign Act
(FECA). As part of this task, the FEC promulgates regulations implementing FECA
requirements, and issues advisory opinions that respond to inquiries from those affected by the
law. Additionally, the FEC has jurisdiction over the civil enforcement of the FECA. Finally,
FEC attorneys handle civil litigation arising out of any legal actions brought by, or against, the
FEC.

The FEC is headed by six Commissioners, appointed by the President, and confirmed by the
Senate. Commissioners serve a six year term, and no more than three Commissioners may
represent the same political party. By statute, the Commission’s chairmanship rotates every year,
and the designated chairman has limited authority to set the agency’s agenda.

Under the Commissioners, the FEC’s organizational structure is separated into four primary
offices: the Office of the Staff Director (OSD), the Office of the General Counsel (OGC), the
Office of Inspector General, each headed by a statutory officer, and the Office of the Chief
Financial Officer (OCFO). Subordinate offices to the General Counsel are titled Associate
General Counsels, and each supports one or more of the three core FEC programs. Subordinate
organizations to the Staff Director are in most cases called “offices” for staff support activities
and “divisions” for line activities that are involved in one or more of the three core programs.
Programmatic elements under the Office of the Staff Director include the Disclosure Division,
Information Technology, Information Division, the Press Office, Reports Analysis Division
(RAD), and the Audit Division. The Office of Inspector General is headed by the Inspector
General and reports directly to the Commission. The Office of the Chief Financial Officer
manages Finance, Budget and Procurement, and reports directly to the Commission.

In FY 2010, the FEC was provided 338 full time equivalent employees and a budget of $68.7
million, of which approximately 68.4% was budgeted for staff salaries and benefits, 9.4% for
office space rental, 15.2% for OCIO initiatives and 7.0% for all other expenses. The FEC is
located in Washington, DC, and has no regional offices.

The FEC’s Procurement Office procures goods and services, valued from approximately $20
million to $23 million annually, through contracts, delivery orders, purchase orders, blanket
purchase agreements and interagency agreements, which represents approximately 30 percent of
the FEC’s annual appropriation. The FEC enters into a variety of contracts that range
significantly in dollar value, duration and complexity. The extent of contract management
varies, depending on the size, nature, complexity and risk profile of each contract.




                                                 7

                  OBJECTIVES, SCOPE AND METHODOLOGY 


FEC Management prepared a corrective action plan (CAP) to address the nine findings and
fifteen recommendations included in the Office of Inspector General’s 2008 Performance Audit
of Procurement and Contract Management. The objective of this audit follow-up was to
determine whether management implemented the agreed actions for each recommendation and
whether each audit finding in the 2008 report has been fully resolved. The audit follow-up was
conducted in accordance with Government Auditing Standards. The FEC OIG engaged Cherry
Bekaert & Holland LLP to perform this audit follow-up.

Our review was conducted through the use of the following: detailed interviews; review and
evaluation of relevant documents such as internal Procurement Procedures (known as ProcPros),
directives, training materials, contract listings; and auditor observation. We conducted interviews
to obtain an understanding of the corrective actions implemented since the 2008 Performance
Audit of Procurement and Contract Management. We interviewed key personnel from senior
management and staff, from various divisions, involved in procurement activities.

The scope of the audit included a review of purchase instruments (contracts, purchase orders,
blanket purchase agreements, delivery orders, and interagency agreements) awarded and
executed by the Procurement Office. A sample of 20 procurement instruments were selected,
including a number of pre-selected instruments, high risk instruments, one or more instruments
from each contract type awarded , and a number of random and judgmental items. The scope of
our engagement was limited to a review of the procurement and contract management functions
of the FEC’s Procurement Office, to include: performing a review of a sample of purchases
identifying significant control risks in the policies and procedures of the FEC; and determining
compliance with governing laws, in accordance with the Federal Acquisition Regulation (FAR).

We conducted the audit from September, 2010 through May, 2011, in accordance with
Government Auditing Standards, 2007 revision. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions, based on our audit objectives.

The audit methodology was designed to utilize a risk-based approach. To achieve our audit
objectives, we reviewed policies and procedures governing the procurement and contracting
process; conducted interviews and walk-through procedures with appropriate personnel to
document our understanding, and observation of the actual processes in place; identified high
risk areas; conducted a detailed review of the sampled procurement files; and surveyed personnel
responsible for contract monitoring and oversight. Our sample total of twenty (20) included
three (3) contracts, seven (7) delivery orders, five (5) purchase orders, four (4) blanket purchase
agreements, and one (1) interagency agreement.




                                                 8

The audit included a review of approximately $9 million of procurement instruments
awarded/executed by the FEC from June 1, 2009 through September 30, 2010. The following
table illustrates the total number and dollar values2 of procurement instruments tested, compared
to the population available for testing.

                                                             Total Sample Dollar
       Procurement Type               Items Sampled                              Population Dollar Values
                                                                    Values
Blanket Purchase Agreement                   4                     $ 1,192,143            $ 3,448,223
Purchase Order                                5                      $ 195,279              $ 713,297
Delivery Order                               7                     $ 5,540,691          $ 10,119,799
Contracts                                    3                     $ 1,758,018            $ 2,845,529
Interagency Agreement                        1                       $ 250,000            $ 1,339,381
             Totals                          20                    $ 8,936,131          $ 18,466,229


Based on results of our review, we developed findings and recommendations for management,
which are in the following section.




2
 These values represent the obligations recorded in FEC financial systems as provided by agency staff. Cherry,
Bekaert & Holland, LLP did not audit the values and did not perform additional procedures to determine whether the
values were materially correct.


                                                        9

              DETAILED FINDINGS AND RECOMMENDATIONS 


Management’s responses to the detailed findings were provided in an email dated May 12, 2011
from Mary Sprague, Chief Financial Officer and Bret Zieman, Director of Procurement.
Management’s responses are included verbatim below.

Finding 1: Procurement Directive Has Not Been Approved and Implemented
           (OIG 08-02 – Prior Recommendation 1a)

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the OCFO finalize and implement policies to ensure that pre-award activities
were in compliance with the Federal Acquisition Regulation (FAR). In response to that
recommendation, management stated that it was currently revising the Procurement Policy and
attachments based on recommendations contained within the OIG audit and that it was planning
to issue a procurement directive in FY 2010.

Based on our discussions with management as well as our review of the documentation provided
to us, we noted that the Commission has not reviewed or approved the revisions to the
procurement policies resulting from the 2008 audit. Management had indicated that it planned to
finalize and issue a procurement directive in FY 2010. However, based on discussions with
management we found that the OCFO has not completed the process of finalizing the
procurement directive. Once the OCFO does finalize the procurement directive it will be
forwarded to the Commission for review and approval. The OCFO indicated that they plan to
have the procurement directive finalized before the end of FY 2011.

The condition noted above was the result of a delay in the OCFO being able to finalize their
efforts to create the procurement directive. This delay could be attributed to multiple factors,
such as the impact of multiple continuing resolutions (CR) to the federal budget, which have
shifted the OCFO’s focus toward other priorities. As a result of this condition, there is an
increased risk that procurement activities which do not represent the best interests of the FEC are
being processed. Without approved procurement procedures in place, there is an increased risk
for misuse of agency funds designated for procurement activities.

Recommendation

We recommend that the OCFO:

       1a. 	 Complete the revisions to procurement policies and ensure that the procurement
             directive is finalized and issued within FY 2011.

Management's Response to Finding 1:

Management concurs: The most recent draft Directive 66 is currently being routed for
comment. Management is targeting to have the directive approved by the Commission by the end
of FY 2011.


                                                 10

Auditor Response:

We believe that management has established an appropriate timeline for finalizing the directive.


Finding 2: Pre-Award Administration Needs Improvement (OIG 08-02 –
           Prior Recommendation 1a)

Acquisition planning is the process by which the efforts of all personnel responsible for an
acquisition are coordinated and integrated through a comprehensive plan for fulfilling an
agency’s need in a timely manner and at a reasonable cost. This includes developing an overall
strategy for managing the acquisition. The plan must address all the technical, business,
management, and other significant considerations that will control the acquisition. When
performed correctly, acquisition planning ensures that the requirements are presented in a way
that promotes full and open competition, as well as identifies impediments that could delay the
acquisition or lead to increased cost or technical risk. Normally, acquisition plans that propose
other than full and open competition due to compelling needs or concerns relating to availability
of funds are not approved when the urgency is based on a lack of advance planning (FAR
6.301(c), Other than full and open competition).

Pre-award administration is the process of implementing the acquisition plan developed as the
first phase of procurement. Pre-award administration was not adequately performed to ensure
best value to the FEC with respect to procurement actions. Our review of the acquisition
planning and pre-award procedures and processes at the FEC are described below.

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the OCFO finalize and implement policies to ensure that pre-award activities
were in compliance with the FAR. In response to that recommendation, management stated that
it was currently revising the Procurement Policy and attachments based on recommendations
contained within the 2008 OIG audit and that it was planning to issue a procurement directive in
FY 2010.

We selected a sample of twenty (20) contracts and tested the documentation maintained in the
file related to pre-award administration. Specifically, we reviewed each procurement file for: (1)
Written Acquisition Plans, (2) Statement of Work, (3) Market Research, (4) Competition, (5)
Technical Evaluation, (6) Price Reasonableness and (7) Overall Contractor Selection. Our
observations related to each of these items are described below:




                                                11

1.	 Lack of Adequate Acquisition Planning

FAR Part 7.1, Acquisition plans provides extensive regulations relating to acquisition plans,
requirements for agency management, and the requirements for contents of a written acquisition
plan. The applicable FAR reference sections are summarized below:

       •	 Subpart 7.102, Policy, states that agencies shall perform acquisition planning and
          conduct market research in order to promote and provide for acquisition of
          commercial items. If commercial items suitable to meet the agency’s needs are not
          available, non-developmental items should be used, to the maximum extent
          practicable. In both instances, full and open competition should be used to the
          maximum extent practicable.

       •	 Subpart 7.103, Agency-head responsibilities, also states that the agency head or a
          designee shall prescribe procedures to ensuring that acquisition planners address
          appropriate requirements to promote and provide for full and open competition,
          establish criteria and thresholds to define when a written acquisition plan is required
          and ensuring that agency planners on information technology acquisitions comply
          with the capital planning and investment control requirements.

       •	 Subpart 7.105, Contents of written acquisition plans, states that written acquisition
          plans typically includes acquisition background and objectives such as statement of
          need, applicable conditions, cost, capability of performance, delivery or performance
          period requirements, and trade-offs, etc. The acquisition plan should also include a
          plan of action highlighting potential sources, competition, source selection
          procedures, acquisition considerations, budgeting and funding options.

We found that there were no written acquisition plans documented for any of the procurements
included in our sample. Additionally, the ProcPros do not contain adequate guidance related to
acquisition planning. Specifically we noted that the policy contained insufficient detail for:
        •	 Designating planners for acquisitions;
        •	 Ensuring that acquisition planners address the requirement to specify needs, develop
           specifications, and to solicit offers in such a manner to promote and provide for full
           and open competition with due regard to the nature of the supplies and services to be
           acquired (10 U.S.C. 2305(a)(1)(A) and 41 U.S.C. 253a(a)(1));
        •	 Establishing criteria and thresholds at which increasingly greater detail and formality
           in the planning process is required as the acquisition becomes more complex and
           costly;
        •	 Reviewing and approving acquisition plans and revisions to these plans to ensure
           compliance with FAR requirements;
        •	 Waiving requirements of detail and formality, as necessary, in planning for
           acquisitions having compressed delivery or performance schedules because of the
           urgency of the need; and
        •	 Ensuring that knowledge gained from prior acquisitions is used to further refine
           requirements and acquisition strategies. For services, greater use of performance-
           based acquisition methods should occur for follow-on acquisitions.


                                                12

2.	 Statement of Work (SOW)

FAR 8.405-2, Ordering procedures for services requiring a statement of work, states:

       “(a) General. Ordering activities shall use the procedures in this subsection when
       ordering services priced at hourly rates as established by the schedule contracts. The
       applicable services will be identified in the Federal Supply Schedule publications and the
       contractor’s pricelists.

       (e) Minimum documentation. The ordering activity shall document—
              (1) The schedule contracts considered, noting the contractor from which the
              service was purchased;
              (2) A description of the service purchased;
              (3) The amount paid;
              (4) The evaluation methodology used in selecting the contractor to receive the
              order;
              (5) The rationale for any tradeoffs in making the selection;
              (6) The price reasonableness determination required by paragraph (d) of this
              subsection; and
              (7) The rationale for using other than—
                      (i) A firm-fixed price order; or
                      (ii) A performance-based order.”

FEC ProcPro #8- Statements of Work, states:

       “The statement of work (SOW) is a description of the physical, functional, or
       performance characteristics of the supply, service, or construction requirement. It
       promotes full and open competition, and includes, as appropriate, requirements for
       inspecting, testing, or preparing the supplies, service or construction for delivery or
       performance. A SOW may be used to procure: construction, supplies, commodities (e.g.,
       computers, copiers), to supplement firm specifications; or services - professional (e.g.,
       consulting services), maintenance/janitorial, training classes, hotel and conference
       centers, administrative, and other general services.”

Generally, we found that statements of work were prepared as part of acquisition planning;
however, we noted the following:
   •	 Two of the procurements included in our sample were missing a SOW as required by
      FAR Subpart 8.405-2, Ordering Procedures for Services Requiring a Statement of Work.
   •	 For procurements which did contain a SOW, we found that in six instances the SOW was
      missing certain critical elements, such as work to be performed, location of work, period
      of performance, deliverable schedule or applicable performance standards.




                                                13

3.	 Market Research

Conducting adequate market research is essential to ensuring that procurements are executed in
an efficient manner and for the best value. Market research was not adequately performed and
documented to ensure best value to the FEC with respect to procurement actions.

FAR Part 10- Market Research, states:

       “Market research must be conducted to ensure that legitimate needs are identified and
       trade-offs are evaluated to meet those needs appropriate to the circumstances-
              (1) Before developing new requirements;
              (2) Before soliciting offers for acquisitions in excess of the simplified acquisition
              threshold;
              (3) Before soliciting offers with an estimated value less than the simplified
              acquisition threshold when adequate information is not available.”

We reviewed the contract files for documentation related to market research conducted by the
Procurement Office (or other agency staff). For each file, we determined whether the contract
file documented one or more of the following market research techniques:
        ●	 Contacting knowledgeable individuals in Government and industry regarding market
           capabilities to meet requirements.
        ●	 Formally requesting information published in appropriate technical or scientific
           journals or business publications, as appropriate.
        ●	 Querying Government-wide contract databases and other procurement instruments
           intended for use by multiple agencies and other Government and commercial
           databases that provide information relevant to agency acquisitions.
        ●	 Communicating on-line with industry, acquisition personnel, and customers.
        ●	 Obtaining source lists of similar items from other contracting activities or agencies,
           trade associations or other sources.
        ●	 Reviewing catalogs and other generally available product literature published by
           manufacturers, distributors, and dealers; or available on-line.
        ●	 Holding interchange meetings or pre-solicitation conferences to involve potential
           offerors early in the acquisition process.

We determined that nine of the files tested contained inadequate documentation of market
research. In some cases there may have been evidence to infer that some form of market research
was performed, however, in those cases the file still contained no explicit documentation of the
research conducted.




                                                 14

4.   Competition

We reviewed the contract files for documentation of how competition was considered and
promoted as part of the procurement process. We tested the files for evidence that competitive
procedures were used during the procurement.

FAR 7.102, Acquisition Plans - Policy, states:

        “(a) Agencies shall perform acquisition planning and conduct market research (see FAR
        Part 10) for all acquisitions in order to promote and provide for –

                   (1) Acquisition of commercial items or, to the extent that commercial items
                   suitable to meet the agency’s needs are not available, non-developmental items,
                   to the maximum extent practicable (10 U.S.C. 2377 and 41 U.S.C. 251, et seq.);
                   and
                   (2) Full and open competition (see Part 6) or, when full and open competition is
                   not required in accordance with Part 6, to obtain competition to the maximum
                   extent practicable, with due regard to the nature of the supplies or services to
                   be acquired (10 U.S.C. 2301(a)(5) and 41 U.S.C. 253a(a)(1)).”

For procurements which were sole sourced, we reviewed the file for the appropriate justification
and approval documentation for a sole source selection as required by FAR 6.3.

FAR 6.303-1, Justification Requirements, states:

        “(a) A contracting officer shall not commence negotiations for a sole source contract,
        commence negotiations for a contract resulting from an unsolicited proposal, or award
        any other contract without providing for full and open competition unless the contracting
        officer—
               (1) Justifies, if required in 6.302, the use of such actions in writing;
               (2) Certifies the accuracy and completeness of the justification; and
               (3) Obtains the approval required by 6.304.

FAR 6.303-2, Content, states:

        “(a) Each justification shall contain sufficient facts and rationale to justify the use of the
        specific authority cited.
        (b) As a minimum, each justification shall include the following information:
             (1) Identification of the agency and the contracting activity, and specific
             identification of the document as a “Justification for other than full and open
             competition.”
             (2) Nature and/or description of the action being approved.
             (3) A description of the supplies or services required to meet the agency’s needs
             (including the estimated value).



                                                  15

            (4) An identification of the statutory authority permitting other than full and open
            competition.
            (5) A demonstration that the proposed contractor’s unique qualifications or the
            nature of the acquisition requires use of the authority cited.
             (7) A determination by the contracting officer that the anticipated cost to the
            Government will be fair and reasonable.
            (8) A description of the market research conducted (see Part 10) and the results or a
            statement of the reason market research was not conducted.
            (12) Contracting officer certification that the justification is accurate and complete
            to the best of the contracting officer’s knowledge and belief.
        (c) Each justification shall include evidence that any supporting data that is the
        responsibility of technical or requirements personnel (e.g., verifying the Government’s
        minimum needs or schedule requirements or other rationale for other than full and open
        competition) and which form a basis for the justification have been certified as complete
        and accurate by the technical or requirements personnel.”

We found that two of the contract files included in our sample contained inadequate
documentation of competitive procedures used during the procurement process. We also found
that one file lacked adequate documentation of justification and approval for a sole source award
as required by FAR 6.3- Other than Full and Open Competition.

5.   Technical Evaluation

We reviewed the contract files included in our sample for documentation related to the technical
evaluation performed by the Procurement Office. We also tested to determine if the technical
evaluation documentation included certain critical elements, such as the evaluation method used,
description of the evaluation processes performed and the basis for the decision reached (in the
form of a narrative document, form, checklist or similar).

Our review indicated that eleven (11) of the twenty (20) sample items did not have adequate
documentation of the technical evaluation performed. We also found that, when technical
documentation was present, there were two instances in which the documentation lacked critical
elements as described above.

6.   Price Reasonableness

We reviewed the contract files for documentation related to the evaluation of price
reasonableness performed by the Procurement Office. We tested the files to determine if
documentation of the method used to evaluate price reasonableness was included. We also tested
for documentation concluding on the outcome of price reasonableness evaluation (written
assertion of reasonableness, such as memo to file or email from the Contracting Officer (CO) to
the technical team stating contractor selected represented best value to agency).




                                                 16

Our testing indicated that fourteen of the files tested did not have adequate documentation of the
method used to evaluate price reasonableness. We also found that fifteen of the files tested were
lacking adequate documentation concluding on the outcome of the price reasonableness
evaluation.

7.	 Overall Contractor Selection

We reviewed the contract files for documentation related to the overall contractor selection. We
tested the files for documentation of the basis used for the final overall contractor selection
(narrative document or similar). We found that nine of the files did not contain adequate
documentation of the overall contractor selection.

In addition to the testing described above, we reviewed the policies for guidance on debarment
review. We noted that the Procurement Office’s ProcPros do not contain a policy for determining
whether a vendor is included on the Excluded Parties List System (EPLS).

The file checklist titled Procurement File Index- Purchase & Delivery Orders included a step
requiring the EPLS search to be documented in the contract file. However, based on our testing,
we found that the second page of this index, which is a detailed checklist (including EPLS steps)
titled FEC PO-DO Checklist, was frequently observed as missing or incomplete.

The conditions noted above were the result of guidance that has not been fully developed for pre-
award procedures and inadequate oversight over pre-award activities. As a result of the
conditions noted above, there is an increased risk that the agency did not receive the best value
on procurement actions because:
       ●	 The agency does not adequately emphasize acquisition planning, when appropriate,
           therefore decreasing the likelihood that all procurements awarded were aligned to
           commensurate business needs.
       ●	 Procurement actions were not in compliance with the FAR with respect to planning,
           evaluating and awarding procurements.
       ●	 Statements of work did not contain adequate detail, therefore decreasing the ability of
           the agency to effectively evaluate service delivery.

Recommendations

We recommend that the Procurement Office:

       2a. 	   Implement guidance to describe when acquisition plans are required and how they
               should be documented.

       2b. 	   Enforce the procedures contained in the ProcPro addressing the preparation and
               documentation of SOWs.




                                                17

       2c. 	   Prepare and update a procurement plan for procurements with an extended service
               delivery period, technical complexity, and changing technological options for
               service solutions throughout the procurement lifecycle to ensure that the agency
               meets its needs in the most effective, economical and timely manner.

       2d. 	 Ensure that the basis for contractor selection be clearly indicated in all
             procurement files.

Management's Response to Finding 2:

Management concurs in part: Management agrees that it is important to perform effective pre-
award planning. The OCFO will plan to update the ProcPros to provide summary guidance and
update what documentation would be beneficial to be included in the contract file. However,
since the FEC uses competitive RFPs and RFQ’s via the GSA schedule and/or GSA eBUY for a
large portion of contract awards, the pre-award planning does not need to be as extensive as it
would if the FEC were issuing Open Market full and open competition awards via FedBizOpps.

Auditor Response:

The agency’s plan to update the ProcPro is responsive to the audit issue and when fully
implemented should satisfy the intent of the audit recommendation. We agree that there are
certain types of procurement actions which require varying degrees of documentation. We
believe that the policies should contain sufficient guidance for the instances in which a greater
level of documentation (non-GSA for example) would be required.


Finding 3: Inadequate Monitoring of OCFO Internal Controls Over
            Procurement Activities (OIG 08-02 - Prior Recommendation 1b)

FEC Policy

FEC ProcPro #4- FPDS Reporting, states:

       “FPDS-NG reporting audits: On an annual basis a random sampling of contract actions
       generated during the fiscal year requiring FPDS-NG reporting will be pulled and
       inspected to ensure they are within FAR and FEC Procurement compliance. This audit is
       covered within the OCFO Internal Controls procedures.” (Emphasis added)

FEC ProcPro #8- File Review and Approval, states:

       “Post Award Monitoring- The CO and/or CFO may conduct periodic reviews of random
       award files in accordance with internal control procedures to determine that all
       modifications, invoices, and correspondence are properly filed. All findings will be put
       into a memo and if applicable given to the contract specialist or purchasing agent for file
       correction.” (Emphasis added)




                                                18

FEC ProcPro #10- BPA File Review, states:

       “FILE REVIEW: IAW FAR 13.303-6, the following BPA Review Procedures will be
       coordinated via the Director of Procurement to the appropriate POCs/COTRs through
       the CFO Internal Control Program on an annual basis.” (Emphasis added)

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the FEC should establish and implement a continuous monitoring program to
ascertain the quality of its procurement activities and ensure consistency in procurement
planning and awards. In response to that recommendation, management stated that the OCFO
Internal Control Program provides the quality control review to ensure policies and procedures
are followed.

In order to verify if management’s response to the prior recommendation was completed
successfully, we attempted to obtain documentation related to the OCFO internal controls
process mentioned in their policies. Management provided us with the OCFO’s vulnerability
assessment checklist results for FY 2010, a letter of assurance for FY 2010, and a list of
policies/procedures. While a vulnerability assessment is an important step in the internal control
process, it is, by design, only one component of a comprehensive internal control program.
Based on our review of the OCFO internal control documentation, we noted limited
documentation describing which OCFO internal controls have been established to prevent or
detect non-compliance with procurement policies.

Without internal control procedures, there is no formal plan to verify and review procurement
performance. Our testing resulted in the following observations:
       •	 There is no documentation related to how the internal controls mentioned in the
          ProcPros were designed or how effectively they are functioning.
       •	 Due to the nature of the internal controls, which based on our understanding is limited
          to the risk assessment document provided, the controls would not provide for an
          effective means of error correction in an existing procurement.
       •	 There is no formal feedback mechanism in the internal control procedures designed to
          amend current policies or procedures and prevent future instances of non-compliance.

The conditions noted above can be attributed to the fact that the OCFO internal control program
has not been fully implemented to include procedures designed to ensure consistency in
procurement planning and awards. As a result of the conditions noted above, there is an
increased risk of non-compliance for procurement activities being performed. Without an
effective quality control mechanism in place, there is a risk of inconsistent procurement
management practices and the potential that procurement actions will not be compliant with
FAR, OMB and internal FEC policies and procedures.




                                                19

Recommendations

We recommend that the Procurement Office in coordination with the OCFO:

       3a. 	   Fully implement internal control procedures designed to ensure compliance with
               FAR, OMB and internal FEC policies and procedures.

       3b. 	   Establish a process to periodically assess the effectiveness of the internal controls
               related to procurement functions.

Management's Response to Finding 3:

Management concurs in part: Management considers the action currently taken annually to
evaluate the internal controls of the office do comply with the requirements of the FAR and
OCFO internal control procedures. However, the OCFO is continuing to improve upon its
internal control program and plans that as part of the FY 2011 internal control review to have an
individual outside of the Procurement Division perform a random review of the files to ensure
that the files are documented correctly.

Auditor Response:

We believe that the current actions taken by the agency as part of an internal control program do
not satisfy all FAR requirements. For example, the ProcPros state that BPAs are reviewed on an
annual basis (this is required by FAR 8.405-3) as part of the OCFO internal control process.
However, upon further review we determined that this process is not currently a part of any of
the internal control procedures described in the documentation provided to us.

In general, we agree that improvements to the OCFO internal control program are needed; a
process to implement an independent review of procurement files would help improve the
current process. We encourage management to review the ProcPros for all references to the
OCFO internal control program and ensure that specific procedures are developed and
documented to address each particular procurement activity described in those references.


Finding 4: Lack of Human Capital Plan to Address Risks to Procurement
           Function (OIG 08-02- Prior Recommendation 1c)

One of the operational risks that are faced by organizations is the need to maintain operations in
a continuous and uninterrupted manner. This requires the need to ensure that the organization
does not have excessive over-reliance on one person to the point where processes may be
inhibited should the individual be absent for an extended length of time. In addition, OMB
guidance requires (10/27/2009 Memorandum- Acquisition Workforce Development Strategic
Plan for Civilian Agencies – FY 2010-2014) providing considerations for the agency's
acquisition workforce in a human capital strategic plan.




                                                 20

The 2008 Performance Audit of Procurement and Contract Management audit report noted
periods of extended absence of the Contracting Officer and no human capital plan to address the
risk. The prior report also recommended that the FEC consider and address the need to establish
adequate human capacity in procurement management to reduce the risk to the agency during
periods of absence of the Contracting Officer.

In response to this recommendation from the prior audit, in its fiscal year 2011 Management
Assessment, the OCFO proposed to create a new Senior Contract Specialist position that could
perform most of the duties of the Contracting Officer in his absence. However, while this
position has been created, the OCFO does not have the authorization to fill the position.
Therefore, to date, a formal plan is not in place to reduce the risk to the procurement function
during periods of extended absence of the Contracting Officer (CO).

As noted in its management assessment, the OCFO has a number of functions that are staffed
“one deep.” The Director of Procurement is currently the only CO for the FEC and therefore the
only individual who can award contracts on behalf of the FEC. An extended absence of the
Contracting Officer could have a severe impact on the Commission’s ability to continue normal
procurement operations since the CO is the only individual in the Commission that can award
contracts and obligate the Federal Government.

Recommendation

We recommend that the FEC:

       4a. 	   Implement a human capacity contingency plan based on current staffing levels.
               While filling the Senior Contract Specialist position would be the simplest way to
               address the risk, a contingency plan must be in place until such time as that
               position is filled. The plan should identify internal or external sources to fulfill
               CO responsibilities. For internal resources, the plan should identify how
               responsibilities will be shared in order to provide the acting CO the time to
               perform the procurement duties. Any special training should be identified and
               completed to ensure that the plan can be implemented on short notice.

Management's Response to Finding 4:

Management concurs in part: Management agrees that there is always the need for human
resource and succession planning and has demonstrated that the OCFO has thought about and
discussed at length different options for ensuring the successful completion of the office’s
responsibilities. However, a more formal document for a small staff does not seem to be the most
effective use of staff and management time. Over the past three years, the OCFO has
demonstrated that they are able to effectively respond to the needs of the agency based on the
circumstances that present themselves. The OCFO continues to look for more effective options
for resourcing the Procurement Division and plans to continue to do so.




                                                 21

Auditor Response:

We believe that due to the limited personnel resources available to the agency, and specifically
the Procurement Office, the agency is exposed to increased risk by relying on one Contracting
Officer. Therefore, we reaffirm our recommendation that, at a minimum, a written contingency
plan should be prepared.


Finding 5: Modification Actions Not Approved by CFO (OIG 08-02 - Prior
           Recommendation 2a)

FEC ProcPro #8- File Review/Approval, states:

       “CFO must approve any modification actions, (including administrative changes) which
       do not impact funding, which will cause an existing procurement to be greater than or
       equal to $100,000.”

Based on discussions with the Director of Procurement, the current policy for procurement
approvals became effective as of January 1, 2010. We tested modification actions, for the
contracts selected in our audit sample, which were awarded after the effective date of this policy
for evidence of proper CFO approval. We found that 14 modifications, actions which required
CFO approval, totaling $101,335 did not have evidence of CFO approval. We noted that
approximately half of the modifications lacking CFO approval were administrative actions that
had no impact on contract funding.

The condition noted above was the result of a lack in proper oversight by the Procurement Office
and OCFO to enforce the internal FEC policies and procedures. Approvals are a necessary
control to reduce the risk of waste, fraud and abuse. As a result of non-compliance with the
agency’s policies, there is an increased risk of waste, fraud and abuse.


Recommendations

We recommend that the Procurement Office:

       5a. 	   In coordination with the OCFO, increase monitoring efforts to ensure that current
               approval policies and procedures are followed.

       5b. 	   Review the current approval policy and revise the procedures to clarify the fact
               that CFO approval may not be required for administrative actions.




                                                22

Management's Response to Finding 5:

Management concurs: Since administrative modifications to contracts provide little, if any,
financial risk, the OCFO has already updated ProcPro #8 to reflect a more appropriate process of
management oversight.

Auditor Response:

The agency’s plan to update the ProcPro to reflect intended CFO approval language is responsive
to the audit issue and when fully implemented should satisfy the intent of the audit
recommendation.


Finding 6: COTR Training Requirements Were Not Monitored in a Timely
           Manner (OIG 08-02 - Prior Recommendation 3a)

Office of Federal Procurement Policy, The Federal Acquisition Certification for Contracting
Officer Technical Representatives, dated November 27, 2007, states:

       “All COTRs appointed to a contract after the effective date of this policy must be
       certified no later than six months from their date of appointment and must maintain their
       skills currency through continuous learning. COTRs who hold delegation letters on
       active contracts as of the effective date of this policy have generally taken agency-
       required training. To recognize this earlier training, current COTRs must review their
       training in accordance with agency policy, ensure that all essential competencies
       articulated in the attached have been obtained, and be certified no later than 12 months
       from the effective date of this policy. Any training required to obtain needed
       competencies can count toward the continuous learning requirement for current COTRs.

       The Chief Acquisition Officer of each agency is responsible for the policies and programs
       necessary to implement this certification program.

       Training: COTRs must have a minimum of 40 hours of training and must maintain their
       skills currency through continuous learning. The training can be obtained through FAI, the
       Defense Acquisition University, commercially-available sources, colleges or universities, or
       agency-specific courses. Twenty-two of the required 40 hours of training hours must cover
       the essential COTR competencies listed above. A suggested training curriculum includes the
       following courses. Agencies considering substituting other training for these courses must
       ensure that the curriculum covers all essential competencies.”

FEC ProcPro #20- COTR Program, states:

       “COTRs are required to take a minimum of 40-hours refresher training every two years
       when serving as a COTR. The training may include procurement ethics, performance-
       based contracting, strategic sourcing or other Procurement related topics relevant to
       COTR assignments. The CAO [Chief Acquisition Officer] shall establish core training



                                                 23

       requirements that must be met by the COTRs. Individuals assigned as COTR’s are also
       responsible to ensure the CAO has the proper documentation supporting training outside
       that assigned by the CAO in order to apply related courses from their area of expertise
       (project management, government law, fiscal law, etc) to the 40-hr requirement.”

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the FEC Procurement Office ensure COTRs and contract points of contact are
provided with adequate training, written responsibilities, and appropriate monitoring tools
necessary to accomplish the objectives of their delegated responsibilities.

As described above, the Federal Acquisition Certification for Contracting Officers’ Technical
Representatives (FAC-COTR) requires that, as of November 27, 2007, all appointed COTRs
must be certified no later than six months from their date of appointment, and must maintain
their skills currency through continuous learning. The FAC-COTR establishes skills and core
competencies for COTRs, and requires a minimum of 40 hours of training every two years. The
FEC Chief Acquisition Officer (Director of Procurement) is responsible for establishing and
running a training program which satisfies the requirements of the FAC-COTR.

During our follow-up review, we noted that the Director of Procurement has established a
process in which he developed a spreadsheet detailing information such as training certification
dates, expiration dates, training hours and assigned awards. According to this spreadsheet, two of
the six COTRs tested had certifications which expired on March 1, 2011. Upon further inquiry, it
was determined that the spreadsheet is not being kept up-to-date and the COTRs’ certification
remained active.

Therefore, while a process for recording and monitoring the COTR training program has been
established, without timely updates the process is not functioning as designed. Without an
updated status of COTR training requirements, COTR certifications may expire while the COTR
is monitoring a contract. Also, there is an increased risk that FEC COTRs with assigned
monitoring duties will not be adequately trained to accomplish the objectives of their delegated
responsibilities.

Recommendation

We recommend that the Procurement Office:

       6a. 	   Utilize the process established by the Director of Procurement by using the
               schedule tracking COTR training requirements on a continuous basis, and update
               the schedule as training certificates are received from COTRs.

Management's Response to Finding 6:

Management concurs: The Procurement Division continues to work to provide effective
monitoring of COTR training and is working on securing resources to advance this effort.




                                                24

Auditor Response:

We believe that, although management concurs with the finding, management will need to
identify specific plans of action for effectively monitoring training (i.e. timely updates of COTR
hours for the current process, etc.) in order to appropriately address the finding. We understand
that management intends to secure additional resources to assist with addressing this
recommendation; however, management needs to provide more details related to how these
resources will be secured. We encourage management to document these details in their
corrective action plan that will address the findings and recommendations for this audit.



Finding 7: Contract Monitoring Activity and Tools Were Not Effective (OIG
           08-02 - Prior Recommendation 3a)

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the FEC Procurement Office ensure that COTRs are provided with and apply
appropriate monitoring tools necessary to accomplish the objectives of their delegated
responsibilities. We interviewed COTRs to determine what processes or tools they used to
monitor procurements assigned to them by the CO. We found in some cases the COTR
monitoring activities were ineffective and COTRs lacked the monitoring tools necessary to
adequately perform COTR responsibilities.

The inadequacies discovered related to monitoring the period of performance for assigned
contracts, security related items and property furnished to the contractor. Specifically, in two
instances, it was determined that there was no formal process or method for monitoring period of
performance for procurements. It was noted in two instances that the COTR did not establish a
mechanism to effectively manage the issuance and return of security related items (keys, badges
and similar). Additionally, we noted one instance where the COTR did not have any formal
method of tracking government property that was in the possession of the contractors.

Based on the interviews, we found that all of the COTRs were provided standard tools which
could be used to monitor contract performance. We determined that the processes and tools
utilized by the COTRs to monitor funding and payments on contracts were adequate. However,
there were no standard tools provided to the COTRs to monitor security items and government
property as mentioned above.

Office of Federal Procurement Policy (OFPP) Guide to Best Practices for Contract
Administration states:

       “The development of a contract administration plan is essential for good contract
       administration. The plan can be simple or complex but must specify what the
       performance outputs of the statement of work are, and describe the methodology to
       conduct the inspections. This saves time and resources because the COTR is not
       monitoring the mundane, routine portions of the contract; instead the COTR is focusing
       on the major outputs of the contract.”


                                                25

As stated above, a formal contract administration plan provides the COTR with a framework for
monitoring contract performance. It serves as a guide for the COTR to follow for contract
management duties. The plan should contain work tasks and milestones included in the contract.
A formal monitoring plan is used to monitor performance on a daily basis as well as over the life
of procurement. We found that none of the COTRs interviewed had developed a formal
monitoring plan at the outset of the procurement to oversee contract performance.

FEC ProcPro #20- COTR Program, states in the sample COTR assignment letter:

        “...You will also be required to evaluate the contractor’s performance at least annually,
        and at the end of the contract period by providing a written report to the CO.”
We found that none of the COTRs had prepared annual contractor performance evaluations as
required in the assignment letter. Some of the COTRs stated that they were familiar with the
performance evaluation process; however, they were never required to complete an evaluation
for a contractor.

The conditions noted above were a result of inadequate guidance and tools being provided to
COTRs from the Procurement Office. As a result, there is an increased risk that COTRs will not
be able to effectively monitor the procurements which are assigned to them, thereby decreasing
the likelihood that the agency is receiving the best value for the services being provided.

Recommendations

We recommend that the Procurement Office:

       7a.    Establish guidance requiring the use of formal monitoring plans for procurements,
              where appropriate.

       7b.    Enforce the responsibilities assigned to COTRs related to contractor performance
              evaluations.

       7c.    Implement policies to provide more guidance to COTRs with respect to how
              procurements are to be monitored and what documentation should be maintained
              in the files.

Management's Response to Finding 7:

Management concurs: The Procurement Division continues to work to provide effective
monitoring of COTRs and is working on securing resources to advance this effort.




                                                26

Auditor Response:

We believe that, although management concurs with the finding, management will need to
identify specific plans for how effective COTR monitoring will occur in order to appropriately
address the finding. We understand that management intends to secure additional resources to
assist with addressing this recommendation; however, management needs to provide more details
related to how these resources will be secured. We encourage management to document these
details in their corrective action plan that will address the findings and recommendations for this
audit.


Finding 8: Procurement Office Provides Limited Formal Oversight of
           COTRs (OIG 08-02 - Prior Recommendation 3b)

Office of Federal Procurement Policy Letter 05-01 states:

       “The CAO is responsible for assessing the current skills inventory of the workforce,
       identifying short- and long-term agency needs, and establishing plans, including
       recruitment and retention strategies, for obtaining the acquisition workforce resources
       and skills required to meet future agency mission needs.”

In our effort to determine the level of oversight and supervision the Procurement Office provides
COTRs related to monitoring contracts, we interviewed eight COTRs/POCs (point of contact).
Overall, the COTRs/POCs interviewed indicated that, subsequent to their assignment, the CO's
involvement in supervising how COTRs monitor procurements is limited to informal discussions
or email communication. All COTRs interviewed indicated that there are no formal periodic
meetings with the CO to discuss contract monitoring effectiveness. Additionally, in all cases, the
COTR stated there is no formal review of monitoring plans by the Procurement Office.

The condition noted above was the result of the Procurement Office providing inadequate
oversight over the contract monitoring process. As a result, there is an increased risk that
COTRs/POCs will not be able to perform their assigned monitoring duties in an effective
manner. Ineffective COTR/POC monitoring could lead to:
       ●	 inappropriate contract modifications to extend the period of performance, thereby
           delaying the delivery of services to the agency;
       ●	 inappropriate or inaccurate business justifications for contract modifications to
           increase contract value, potentially creating unauthorized commitments; and
       ●	 contract objectives not being met, thereby causing untimely, inaccurate, and
           inappropriate contract service or deliverables, or unjustified payment approvals.




                                                 27

Recommendations

We recommend that the Procurement Office:

       8a.     Periodically hold meetings with each COTR to assess the monitoring
               effectiveness for their assigned procurements.

       8b.     Review the COTR’s formal monitoring plan prior to a COTR starting to monitor a
               given procurement.

Management's Response to Finding 8:

Management concurs: The Procurement Division continues to work to provide effective
oversight of COTRs and is working on securing resources to advance this effort.

Auditor Response:

We believe that, although management concurs with the finding, management will need to
identify specific plans for how effective oversight of COTRs will occur in order to appropriately
address the finding. We understand that management intends to secure additional resources to
assist with addressing this recommendation; however, management needs to provide more details
related to how these resources will be secured. We encourage management to document these
details in their corrective action plan that will address the findings and recommendations for this
audit.


Finding 9: Lack of Independent Validation for Contract Data Reported in
           FPDS (OIG 08-02 - Prior Recommendation 4a & b)

The Federal Procurement Data Center (FPDC) operates the Federal Procurement Data System -
Next Generation (FPDS-NG), and is located at the General Services Administration. The FPDC
produces reports, which examine various aspects and impacts of the federal acquisition process.
The statistical data are used for geographical analysis, market analysis, and analysis on the
impact of congressional and presidential initiatives in socio-economic areas such as small
business, small disadvantaged business, women-owned business, historically black
colleges/universities or minority institutions, HUBZone awards, and awards to a nonprofit
agency employing people who are blind or severely disabled.

The Office of Federal Procurement Policy (OFPP) Act, as amended, 41 U.S.C. 401 et. seq., and
FAR Subpart 4.6, Contract reporting, require that federal agencies establish and maintain a
computer based system to collect and report procurement data to the FPDS-NG for collecting
and disseminating statistical procurement data to Congress, the Executive Branch and the private
sector.

The Commission is also required to send a letter to OMB each year certifying the accuracy of
FPDS-NG data reported, and also confirming that periodic testing of FPDS-NG data was



                                                 28

performed by an individual outside of procurement. This is based on OFPP guidance issued
October 7, 2009, titled Improving Acquisition Data Quality for Fiscal Years 2009 and 2010,
exhibit 2, procedure 3, which states the following:

       “Each sampled contract action report (CAR) must be validated against the associated
       contract file by an individual other than the contracting officer who awarded the contract
       or the person entering the contract data for that contract action record.”

FEC ProcPro #4- FPDS-NG, states:

       “FPDS-NG reporting audits: On an annual basis a random sampling of contract actions
       generated during the fiscal year requiring FPDS-NG reporting will be pulled and
       inspected to ensure they are within FAR and FEC Procurement compliance. This audit is
       covered within the OCFO Internal Controls procedures.”

FEC [FY 2009] Agency FPDS Data Quality Report- Exhibit 1, states:

       “INTERNAL CONTROLS: Effective with FY 10 the FEC Office of the CFO will be
       auditing the FPDS-NG reporting as part of the overall internal control procedures. A
       percentage of contract actions that required CARS/FPDS-NG reports will be selected at
       random and evaluated by a manager/supervisor outside of the FEC Procurement Office.
       Any errors found will require correction reports to be issued and another random
       sampling of additional contracts and/or the full review of all actions to ensure data
       quality and accuracy.”

The Procurement Office uses the Comprizon system to generate FPDS-NG reports. Procurement
personnel are the only users of Comprizon (with the exception of the system administrator) and
as noted by the Director of Procurement, there are no personnel with the requisite knowledge and
experience to perform a review of FPDS-NG reporting in accordance with the requirements
above. Currently, the Contracting Officer is the only individual with the authority to approve
FPDS-NG data reports generated in Comprizon. The monitoring function of the internal control
processes established in the OCFO’s office has not yet been implemented to include periodic
testing of FPDS-NG data by someone outside of procurement.

The Director of Procurement indicated that the default reporting option in Comprizon, the
Commission’s purchase request and contract writing system, requires the procurement actions
stated above to be filled out and submitted to FPDS-NG. However, he also indicated that it was
possible to manually deselect this option and consequently disable the FPDS-NG reporting
feature. Thus, there is a system control for ensuring procurement data is correctly reported to
FPDS, but because part of the reporting feature can be disabled by users, this control is
inherently less effective.

The OMB requirement above, states that FPDS-NG data testing must be performed annually and
the data certification document submitted by the Procurement Office to OMB indicates that
testing is performed by someone outside the procurement function. Given the inherent ability to
disable the reporting option in Comprizon, this procedure would provide a good compensating
control to this potential weakness. However, in the current process, the Director of Procurement


                                                29

is responsible for reviewing and approving his own data input in FPDS-NG, resulting in an
ineffective detection control due to a lack of segregation of duties, as the Director of
Procurement is testing his own work. Having the same individual review their own work is an
ineffective detection control. In addition, the Commission is unable to provide the proper
certification to OMB that someone outside of procurement actually tested the data.

Recommendation

We recommend that the FEC:

       9a. 	   Implement periodic testing of FPDS data as part of the OCFO’s internal controls
               monitoring program, and that the testing be conducted by someone outside of
               procurement. Access to the Comprizon award data should not be an issue as the
               CO can run the required reports with which the data can be tested.

Management's Response to Finding 9:

Management does not concur: As the OCFO understands the report that is due to OFPP, the
report is due annually, and does not require testing of the accuracy of the data. Rather, agencies
must certify that the information entered into FPDS-NG at the time of award was complete and
accurate. While the memo suggests that an independent individual verify the accuracy of the
data, it is not required. In a small agency, workloads do not always allow for an independent
review. However, the OCFO does have a review of the FPDS-NG information as part of its
annual internal control review.

Auditor Response:

Even though management does not concur, we believe that the guidance from OMB
(Memorandum, dated March 09, 2007, Federal Procurement Data Verification and Validation)
describes a requirement for agencies to validate and verify the data reporting in FPDS on an
annual basis. This validation is a separate and distinct process from the certification of
completeness and accuracy. The guidance also supports our recommendation that an independent
person must conduct the validation procedures. We encourage management to ensure that
documentation of the review performed on FPDS information during the annual internal control
review is maintained in order to support the data quality testing OMB requires for FPDS
reporting.




                                                30

Finding 10: Lack of Guidance Related to Time and Materials and Labor-
            Hour Contracts (OIG 08-02 - Prior Recommendation 5a)

FAR 52.232-7, Payments under Time-and-Materials, and Labor-Hour contracts, the regulation
states:

       “The Government will pay the contractor upon the submission of vouchers approved by
       the CO or the authorized representative.” “The Contractor shall substantiate vouchers
       (including any subcontractor hours reimbursed at the hourly rate in the schedule) by
       evidence of actual payment and by-

           ●	 Individual daily job timekeeping records;
           ●	 Records that verify the employees meet the qualifications for the labor categories
               specified in the contract; or
           ●	 Other substantiation approved by the contracting officer.”

The 2008 Performance Audit of Procurement and Contract Management found that “the FEC
was not in compliance with federal laws and regulations with respect to payment approvals on
time-and-materials and labor-hour contracts.” The report recommended that the FEC develop a
communication and training plan to ensure that the contracting personnel fully understand the
requirements of FAR as they relate to payments on time-and-materials and labor-hour
(T&M/LH) contracts.

The Procurement Office’s corrective action plan stated that the CO would revise ProcPro #020 to
issue further guidance related to ensuring that COTRs who have award actions involving
T&M/LH contracts obtain an understanding on how to monitor and administer these types of
actions. After reviewing the revised policy, there appears to be little or no guidance related to
requirements for COTRs involved in T&M/LH contracts.

Based on discussion with the CO, it was noted that COTRs are being provided guidance on how
to effectively monitor requirements for T&M/LH invoices through the Comprehensive COTR
training class. The CO provided us with the materials used during that training course. Based on
our review of the training materials used, we determined that while T&M/LH contracts are
described, there was no specific guidance related to how invoices from these contracts need to be
supported and reviewed. While it is possible that guidance was provided verbally during class
discussion, based on the printed course book we were unable to identify course training materials
that included guidance related to monitoring T&M/LH contracts.

The Procurement Office has not updated the Procurement Policy to include specific language
regarding the requirements under FAR for monitoring T&M/LH contracts and more importantly
how to review and accept invoices for these contracts. As a result of the condition above, there is
an increased risk that time-and-materials and labor-hour contracts and payments are not in
compliance with FAR requirements.




                                                 31

Recommendations

We recommend that the Procurement Office:

       10a. 	 Ensure that the FAR requirements for time-and-materials and labor-hour contracts
              are included in the training materials.

       10b. 	 Revise the ProcPro to incorporate specific guidance to ensure that COTRs
              understand the requirements for how to monitor and approve payments on
              T&M/labor-hour contracts.

Management's Response to Finding 10:

Management concurs: The Procurement Division has already initiated the action to update the
ProcPro #6 to incorporate the guidance specific to T&M/labor-hour contracts.

Auditor Response:

The agency’s plan to update the ProcPro to incorporate specific guidance for T&M/LH contracts
is responsive to the audit issue and when fully implemented should satisfy the intent of the audit
recommendation. We look forward to reviewing the details contained in the revised policy.


Finding 11: Contract Close-Out Procedures Are Not Compliant With the
           FAR (OIG 08-02 - Prior Recommendation 6a)

FEC is required by FAR 4.804-5, Procedures for Closing out Contract Files to perform
administrative close-out. In addition, FAR 4.805, Storage, Handling, and Disposal of Contract
Files, requires FEC to establish procedures for handling, storing, and disposing of contracts.

The 2008 Performance Audit of Procurement and Contract Management stated that the FEC
Procurement Office should immediately institute formal contract close-out procedures, and
establish and implement adequate internal control over the contract administration process.
Contract close-out is a critical process in the life of a contract and should be a continuous effort
to ensure that contract files are administered in accordance with FAR. During our review, we
noted that FEC currently has not documented contract close-out procedures.

Based on discussion with the Director of Procurement, we have determined that contracts have
not been closed out over the past several years. This has resulted in a backlog of contracts which
need to be closed-out. The Director of Procurement has indicated that he has begun to reduce the
backlog of contracts needing close-out. We noted that some of the contracts tested in our sample
have a note attached to the cover to indicate that they were ready for close-out. The corrective
action plan indicates that close-out information would be annotated on the contract file checklists
when appropriate, however, based on our review of the file checklists, no such information was
observed in any of the files reviewed.




                                                 32

We found that the condition noted above was the result of inadequate internal controls over the
contract administration process. Specifically, the FEC did not have a process in place for
identifying contracts that should be closed out, when the close-out should commence, the
procedures to be performed, and documentation to be maintained as evidence of proper close-out
in accordance with FAR.

Starting January 1, 2011, a more robust contract closeout feature was included in Comprizon,
and going forward this checklist will be incorporated into the formal contract closeout
procedures. This feature provides the FEC with a systematic method for performing contract
closeouts in accordance with FAR requirements

It should be noted that the Comprizon procedures discussed above are not included in the
ProcPro, thereby increasing the risk of contracts being closed out in a manner that is not in
compliance with the provisions of the FAR. Also, excess funds on completed contracts that are
not de-obligated present the opportunity for fraud, waste and abuse of the remaining funds.

Recommendations

We recommend that the Procurement Office:

       11a. 	 Revise the ProcPros to include procedures for closing out contracts which are
              complete, and reference the automated Comprizon closeout checklist.

       11b. 	 Continue to reduce the backlog of contracts requiring close-out by performing
              close-out procedures in compliance with the FAR.

       11c. 	 Develop a formal method of tracking which contracts are in need of close-out as
              well as which contracts have been successfully closed-out.

Management's Response to Finding 11:

Management concurs: The OCFO has revised ProcPro #10 to address the closeout process and
checklists which will be used, specifically for contract close-out in compliance with the
provisions of the FAR. The Procurement Division continues to work on closing out completed
contracts and is working on securing resources to advance this effort.

Auditor Response:

The agency’s plan to update the ProcPro to address contract close-out is responsive to the audit
issue and when fully implemented should satisfy the intent of the audit recommendation. We
understand that management intends to secure additional resources to assist with addressing this
recommendation; however, management needs to provide more details related to how these
resources will be secured. We encourage management to document these details in their
corrective action plan that will address the findings and recommendations for this audit.




                                               33

Finding 12: Lack of Adherence With Information Technology Management
           Reforms (OIG 08-02 - Prior Recommendation 7a)

The Clinger-Cohen Act (CCA), formerly the Information Technology Management Reform Act
of 1996 (ITMRA), is a 1996 United States federal law designed to improve the way the federal
government acquires, uses and disposes of information technology (IT). The CCA supplements
the information resources management policies by establishing a comprehensive approach for
executive agencies to improve acquisition and management of the information resources, by:
        ●	 focusing information resource planning to support their strategic missions;
        ●	 implementing a capital planning and investment control process that links to budget
           formulation and execution; and
        ●	 rethinking and restructuring the way they do their work before investing in
           information systems.

The Clinger-Cohen Act of 1996 directed the development and implementation of a process to
maximize the benefits of information technology (IT) management within the federal
government. Micro agencies reporting under the Accountability of Tax Dollars Act of 2002,
which includes the FEC, are encouraged to comply with best practice principles as outlined in
the Clinger-Cohen Act for information technology investments. Based on our review of FEC
documents, which include the FEC’s Annual Performance and Accountability Report (PAR), the
FEC voluntarily complies with both the spirit and intent of the CCA.

The original findings in the 2008 Performance Audit of Procurement and Contract Management
relate to the lack of adherence with information technology management reforms of the Clinger-
Cohen Act. The previous report specifically recommended that the FEC establish a formal
project review group to adhere to information management technology reforms and the project
review group should perform the following:
        ●	 Develop a formal charter,
        ●	 Include representatives across the agency to include staff from OCFO, Budget and
            Procurement areas; and
        ●	 Document key decisions to include information technology priorities, and retain
            records of meeting minutes and decisions.

Our audit has found that progress has been made to comply with the reforms recommended by
the CCA. An Information Technology Project Review Board (ITPRB) has been established by a
formal charter on October 16, 2009 in response to the recommendation noted above. We also
noted that the ITPRB has created and documented a prioritized list of IT projects that it has
provided to the finance committee for consideration as part of the budget process. Within the
Charter, there is a section called "Resources Required" which lists the FEC core Board members,
or designee. However, while the CFO has been included as one of the “FEC core Board
members,” representatives from the Budget and Procurement areas have not been specifically
included, as recommended in the previous audit report. Also, we were not provided with
documentation of ITPRB meeting actions in the form of minutes or meeting summaries, as
recommended by the 2008 Performance Audit of Procurement and Contract Management. It is
therefore not possible to determine whether all potential users have been surveyed and provided
input on strategic information technology needs and prioritization.


                                               34

As the issue is primarily one of documentation of the meeting discussions, it appears that final
steps need to be taken to memorialize the process that has been put into place, and to ensure that
the maximum benefit is derived from having the appropriate members on the Board. As a result
of the condition noted above, the FEC may not have maximized value or ensured that all IT
procurements were technically viable, fully met user needs, and presented the best value for
money. There is an increased risk that the FEC may have acquired information technology
products and services that did not fully meet its needs, resulting in wasted funds.

Recommendation

We recommend that the:

       12a. 	 FEC continue to improve the process that has been initiated since the last audit by
              specifically identifying the core board members for the ITPRB and to include
              representation from Budget and Procurement.

               ITPRB properly document the process by which these decisions are made in the
               form of minutes or a summary of Board discussion and actions of each meeting,
               and a clear and understandable list of project priorities that have a direct link to
               budget allocations.

Management's Response to Finding 12:

Management does not concur: Management has established, by charter, an IT Project Review
Board with membership that is adequate for the scope of the IT program within this agency. IT
projects are documented not only via the IT Review Board, but then again through the Finance
Committee. The projects agreed to by the Board and the approval of the Finance Committee are
both documented to a level that is also commensurate with the scope of the IT program within
this agency. IT priorities are always discussed and considered during the entire budget
formulation, justification and execution process. The Finance Committee and IT Review Board
both document summaries of the discussions and decisions made at the meetings.

Auditor Response:

Consistent with the prior report, we believe that the agency should specifically include
representatives from the Budget and Procurement divisions in the board’s official charter. We
believe that management should take steps to improve the visibility of strategic decision making
for IT projects, specifically that meeting minutes should be kept to document the decision
making process, this is also consistent with the prior recommendation.




                                                 35

Finding 13: Blanket Purchase Agreements Are Not Used in Accordance With
           FAR and OMB Guidance (OIG 08-02 – Prior Recommendation
           8a)

A blanket purchase agreement (BPA) is a simplified acquisition method that government
agencies utilize to meet projected, repetitive needs for supplies and services. BPAs provide the
agency with an effective way to leverage their buying power to meet the needs of recurring requirements.
BPAs reduce redundancies in the procurement process, and offer pricing stability because
negotiated prices are fixed for the duration of the contract performance period. By using BPAs,
agencies are able to avoid creating numerous purchase orders for a broad class of supplies and
services.

Guidance

The Office of Management and Budget’s Office of Federal Procurement Policy (OFPP) released
a Memorandum, dated December 22, 2009, titled Achieving Better Value from Our Acquisitions
which provides guidance on the proper use of BPAs. The memorandum states, in part:

       “The Federal Acquisition Regulatory Council is currently reviewing options for
       strengthening the FAR’s coverage on BPAs, including the competition rules associated
       with establishing and placing orders under BPAs. This clarification will further help to
       ensure discounts are routinely sought and maximize the value received from BPA orders.
       I have asked that this review be given expedited attention.

While FAR changes are pending, agencies should take the following steps:

       1. Take advantage of competition. Compete the establishment of new BPAs. Seek to
       establish multiple BPAs whenever possible so that competition can be conducted among
       the BPA holders to keep prices fresh at the time orders are placed. Competition at the
       order level is especially critical for the acquisition of services where initial prices are
       based on fixed hourly rates rather than fixed prices for accomplishing specific tasks.

       2. Negotiate discounts. Seek discounts when establishing schedule BPAs and, as
       appropriate, when placing orders, especially large dollar orders. Discounts may be
       sought in a number of ways, such as in the request for quote when establishing the BPA
       or during negotiations. Agencies should consider making the offer of a discount by the
       contractor a condition for awarding the BPA.3 For existing BPAs, focus on those for
       which no discount has been sought, especially for products and where only one BPA has
       been awarded.4 If, upon review, the agency determines that renegotiation of a BPA could
       lead to discounts—or deeper discounts—for agency buyers, explore, in consultation with
       agency counsel, what options are immediately available.

       3. Review BPAs at least annually. As required by FAR 8.405-3(d), these reviews should
       address whether: (1) the schedule contract upon which the BPA was established is still in
       effect, (2) the BPA still represents the best value, and (3) estimated quantities/amounts
       have been exceeded and additional price reductions can be obtained. No orders should


                                                   36

       be placed under a BPA after the annual anniversary of its establishment until the agency
       makes this determination and documents the results of its review.”

FEC ProcPro #10- BPA File Review and Closeout, states:

       “FILE REVIEW: IAW FAR 13.303-6, the following BPA Review Procedures will be
       coordinated via the Director of Procurement to the appropriate POCs/COTRs through
       the CFO Internal Control Program on an annual basis. The contracting officer that
       entered into the BPA shall –

       A. Ensure that each BPA is reviewed at least annually and, if necessary, updated any
       pertinent contract information at that time; and

       B. If the BPA is under a GSA Schedule ensure that the most recent GSA Schedule for
       pricing has been distributed to the ordering officials and inserted into the file.

       C. Maintain awareness of changes in market conditions, sources of supply, and other
       pertinent factors that may warrant making new arrangements with different suppliers or
       modifying existing arrangements.

       FILE CLOSEOUT: IAW FAR 13.303-7, BPA Closeout Procedures will be coordinated by the
       contracting officer. An individual BPA is considered complete when the purchases under it equal
       its total dollar limitation, if any, or when its stated time period expires. Upon expiration of time
       or at the time when the last order reaches the maximum order (ceiling) amount, the BPA shall be
       closed IAW the normal process for contract closeout within the procurement policy.
       Note: Annual reviews will be initiated via the OCFO Internal Controls policy.”


FAR 8.405-2, Ordering procedures for services requiring a statement of work, states:

       “(a) General. Ordering activities shall use the procedures in this subsection when
       ordering services priced at hourly rates as established by the schedule contracts. The
       applicable services will be identified in the Federal Supply Schedule publications and the
       contractor’s pricelists.

       (e) Minimum documentation. The ordering activity shall document—
              (1) The schedule contracts considered, noting the contractor from which the
              service was purchased;
              (2) A description of the service purchased;
              (3) The amount paid;
              (4) The evaluation methodology used in selecting the contractor to receive the
              order;
              (5) The rationale for any tradeoffs in making the selection;
              (6) The price reasonableness determination required by paragraph (d) of this
              subsection; and




                                                    37

              (7) The rationale for using other than—
                     (i) A firm-fixed price order; or
                     (ii) A performance-based order.”

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the FEC should review FAR guidance on different procurement instruments,
such as BPAs, institute policies and procedures to ensure that the instruments are used as
prescribed, and that management obtain and review multiple bids as part of the BPA
procurement process. In response to that recommendation, management stated that BPA
procedures are being reviewed and will be issued as a ProcPro attached to the standard policy.
The ProcPro will also clarify annual review requirements.

Based on our review of the existing ProcPros, it has been determined that the agency has not
established adequate procedures to implement the guidance contained in the OMB memorandum
dated December 22, 2009. The areas of the memorandum which are not adequately addressed in
current policies include:
        ●	 Compete the establishment of a new BPA, seek to establish multiple BPAs whenever
           possible so that each order could be competed; and
        ●	 Actively seek out discounted rates from vendors.

Our audit sample included four procurements awarded as BPAs. We reviewed the files to
determine if there was documentation of multiple bids to indicate competition, evidence of
discounts, justification for selection, evidence of annual review and compliance with FAR
requirements. We found that one of the BPAs did not contain evidence of multiple bids.

The FEC is required by FAR 8.405-3(d), Blanket purchase agreements (BPAs), to review BPAs
at least annually and to document that review. We noted that none of the BPA files we tested
contained documentation of an annual review. The purpose of an annual review is to ensure that
the BPA is still needed and represents the best value to the agency.

The FAR requires that certain documentation be maintained for procurements which are awarded
using a Federal Supply Schedule, such as a GSA schedule. For procurements that provide
services priced at an hourly rate as established by a GSA schedule, the FEC is required by FAR
8.405-2, Ordering procedures for services requiring a statement of work, to maintain
documentation. We noted that the services provided in three of the BPAs included in our audit
sample were not established using firm-fixed price orders. We found that none of these three
procurement files contained documentation of the rationale for using a BPA other than a firm-
fixed price order. We also found that two of the BPAs we tested did not contain documentation
of any tradeoffs made in making the contractor selection, or documentation of how the agency
considered the level of effort and labor mix to perform the specific tasks in the orders.

The conditions noted above were caused by a failure to consistently apply the guidance
contained in the FAR, the OMB memorandum and FEC internal policies. As a result, there is an
increased risk that services procured through the use of BPAs do not represent the best value to




                                               38

the agency. Additionally, there is an increased risk of fraud, waste and abuse as a result of the
non-compliance with established regulations and policies.

Recommendations

We recommend that the Procurement Office:

       13a.   Coordinate with the Office of the Chief Financial Officer to establish internal
              control procedures to conduct the annual review of BPAs.

       13b.   Revise procurement policies with specific procedures for BPAs to ensure
              compliance with documentation requirements contained in the FAR.

       13c.   Implement procedures to address the strategies intended to maximize value from
              BPAs consistent with guidance from the OMB (December 22, 2009
              memorandum).

Management's Response to Finding 13:

Management concurs: The Procurement Division did compete all BPA’s currently used,
however recognizes that the information may not have been readily available in the files as
required. In addition where BPA’s are used and the service or product is a new requirement, the
action of ensuring competition between the BPA holders will be paramount for all future BPA
calls. The office will take additional administration steps to ensure files are documented in
accordance with FAR in future BPA’s and input that data for current BPA’s at time of annual
reviews.

The Procurement Division has updated ProPro #10 to be more inclusive of not only BPA annual
review information, but clear information concerning specific data requirements for BPA’s as to
current schedule pricing and close out processes has been added.

The Procurement Division is always looking at ways to use BPA’s where the services or
products fit our need. The majority of supplies purchased via the Government Purchase Card are
bought off existing GSA GWAC BPAs to include the newly awarded Strategic Sourcing Office
Supply agreements via GSA advantage and thus the FEC does not need to create new BPAs for
these items.

Auditor Response:

The agency’s plan to update the ProcPro to include additional guidance for BPAs and to increase
efforts to retain BPA documentation is responsive to the audit issue and when fully implemented
should satisfy the intent of the audit recommendation.




                                                39

Finding 14: Procedures to Ensure Contract Files Are Complete Need
           Improvement (OIG 08-02 – Prior Recommendation 9a)

A complete, accurate, and readily accessible contract filing system is a key component to
efficient operations of a procurement management office. As outlined in FAR 4.8, Government
contract files, the head of each office performing contracting, contracts administration or paying
functions shall establish files containing the records of contractual actions. The documentation
in the files shall be sufficient to constitute the complete history of the transaction for the
purposes of:
        •	 Providing complete background as a basis for informed decisions at each step in the
            acquisition process;
        •	 Supporting actions taken;
        •	 Providing information for reviews and investigations; and,
        •	 Furnishing essential facts in the event of litigation or congressional inquiry in
            accordance with FAR 4.803, Contents of contract files.

The files to be established include:
        ●	 A file for cancelled solicitations;
        ●	 A file for each contract; and
        ●	 A general file for a contractor containing documents relating to:
                ○	 No specific contract;
                ○	 More than one contract; or
                ○	 The contractor in a general way (e.g., contractor’s management systems, past
                    performance, or capabilities). FAR 4.801 (c), Government contract files.

Files must be maintained in a standard manner to ensure:
       ●	 Effective documentation of contract actions;
       ●	 Ready accessibility to users;
       ●	 Minimal establishment of duplicate and working files;
       ●	 Safeguarding of classified documents;
       ●	 Conformance with agency regulations for file location and maintenance;
       ●	 Contractor bid or proposal information or source selection information is protected
           from disclosure to unauthorized persons; and
       ●	 Contract files are retained in an appropriate combination of medium (paper,
           electronic, etc.) in accordance with FAR 4.802(f), Contract files.

The 2008 Performance Audit of Procurement and Contract Management audit report
recommended that the OCFO implement procedures to ensure that adequate documentation is
maintained and retained in the contract files. This process should be sufficient to enable
supervisory review of the contract files to ensure compliance. In response to that
recommendation, management stated that it would issue a ProcPro that will require an index




                                                40

(w/checklist) in each award file in order to properly document pre/post award information in a
standard format.

FEC ProcPro #8- File Review and Approval, states:

       “The contract specialist and/or purchasing agent is responsible for assuring that the file
       (RFP, Award, or Modification) is properly labeled and that all required documents are
       filed and tabbed in accordance with the applicable file content checklist."

Our review of the procurement policies noted that the ProcPros do not contain adequate guidance
describing when or how procurement file checklists should be included and used for contract file
administration. We tested a sample of contract files for compliance with FAR and internal FEC
policies. Based on the testing, we noted the following:
        ●	 Four of the files were missing a procurement file checklist.
        ●	 Six of the purchase/delivery orders (PO/DO) were missing the detailed PO/DO file
           checklist (2nd page).
        ●	 Seven of the files included a file checklist which did not accurately represent the
           contents of the file (either items marked on the checklist were missing from the file or
           items were included in the file but not marked on the checklist).
        ●	 Ten files contained documentation deficiencies which would prevent an effective
           supervisory review from being performed.
        ●	 Seven of the files did not contain a Determination and Finding for the inclusion of
           options in the contract.
        ●	 Five of the files did not contain a Determination and Finding for the exercise of
           options.

The conditions noted above were the result of insufficient oversight over the contract
administration process and of the absence of effective internal controls designed to ensure
compliance with procurement policies. As a result of the non-compliance with internal policies,
there is an increased risk of inadequate oversight and internal control over the procurement
process, and contract files that do not contain the required documentation according to the FAR.

Recommendations

We recommend that the Procurement Office:

       14a. 	 Enforce policies and procedures to ensure compliance with the FAR and internal
              FEC policies related to contract administration.

       14b. 	 Revise procurement policies to include guidance which establishes procedures
              requiring procurement file checklists to be used.

       14c. 	 Revise the procurement file checklists to clarify which documents are required to
              be in a file for a given procurement and which documents are physically included
              in the file.




                                                 41

Management's Response to Finding 14:

Management concurs: The Procurement Division continues to work to ensure contract files are
complete and is working on securing resources to advance this effort.

Auditor Response:

We believe that, although management concurs with the finding, management will need to
identify specific plans for how completeness of contract files will be ensured in order to
appropriately address the finding. We understand that management intends to secure additional
resources to assist with addressing this recommendation; however, management needs to provide
more details related to how these resources will be secured. We encourage management to
document these details in their corrective action plan that will address the findings and
recommendations for this audit.




                                              42

ATTACHMENT- PRIOR FINDING STATUS




                                                                       

OIG 08-02 Performance Audit of Procurement and Contract Management
                                                                         Management Status August
Prior Finding          Prior Recommendation                                                                 2010 Follow-up Audit Testing NFR
                                                                         2010


                       1a. The Contracting Officer should finalize                                          Open (Repeat finding)
                       and implement policies and procedures to          Implemented as of March 5, 2010.   Refer to Finding 1. Procurement Directive Has Not
                       ensure all aspects of procurement planning        Not yet formally approved by       Been Approved and Implemented on page 10 and
                       and pre-award activities are performed, as        Commission.                        Finding 2. Pre-Award Administration Needs
                       required under the FAR.                                                              Improvement on page 11.



1. Lack of Adequate    1b. The FEC should establish and implement
Acquisition Planning   a continuous monitoring program to ascertain                                         Open (Repeat finding)
and                    the quality of its procurement activities and                                        Refer to Finding 3. Inadequate Monitoring of
                                                                         Completed January 26, 2010
Pre-Award              ensure consistency in procurement planning                                           OCFO Internal Controls Over Procurement
Administration         and awards.                                                                          Activities on page 18.

                       1c. In addition to the Director of Procurement,
                       employed by the FEC, and delegated the
                       responsibility of Contracting Officer; the FEC
                                                                                                            Open (Repeat finding)
                       should consider and address the need to           Implemented as of March 5, 2010.
                                                                                                            Refer Finding 4. Lack of Human Capital Plan to
                       establish adequate human capacity in              Not yet formally approved by
                                                                                                            Address Risks to Procurement Function on page
                       procurement management to reduce the risk to      Commission.
                                                                                                            20.
                       the agency during periods of absence of the
                       Contracting Officer.

2. Process for         2a. The Procurement Office should fully
Approving Contract     enforce the agency's policies on required                                            Open (Modified repeat finding)
Awards Requires        approvals before executing procurement            Completed January 26, 2010         Refer to Finding 5. Modification Actions Not
Improvement            awards and modifications.                                                            Approved By CFO on page 22.




                                                         43

OIG 08-02 Performance Audit of Procurement and Contract Management
                                                                        Management Status August
Prior Finding         Prior Recommendation                                                           2010 Follow-up Audit Testing NFR
                                                                        2010
                      3a. Ensure COTRs and contract points of
                                                                                                     Open (Repeat finding)
                      contact are provided with adequate training,
                                                                                                     Refer to Finding 6. COTR Training Requirements
                      written responsibilities, and appropriate
                                                                        Completed January 26, 2010   Were Not Monitored in a Timely Manner on page
3. Lack of Adequate   monitoring tools necessary to accomplish the
                                                                                                     23 and Finding 7. Contract Monitoring Activity and
Oversight and         objectives of their delegated responsibilities.
                                                                                                     Tools Were Not Effective on page 25.
Monitoring of
Procurement           3b. Monitors and advises COTRs and contract
Activities            points of contact to ensure that they perform
                                                                                                     Open (Repeat finding)
                      their responsibilities, as required under FAR
                                                                        Completed January 26, 2010   Refer to Finding 8. Procurement Office Provides
                      and best practices recommended under
                                                                                                     Limited Formal Oversight of COTRs on page 27.
                      DCAA guidelines.

                      4a. The FEC Procurement Office should
                      establish processes to consistently and
                      accurately report contract amounts in FPDS-       Completed January 26, 2010   Closed.
4. Contracting Data
                      NG.
Reported in the
Federal Procurement
                      4b. The FEC should provide adequate
Data System is not
                      oversight of FPDS-NG reporting and review                                      Open (Repeat finding)
Accurate
                      the amounts reported, to ensure that they         Completed January 26, 2010   Refer Finding 9. Lack of Independent Validation
                      agree with contract values.                                                    for Contract Data Reported in FPDS on page 28.

5. Payments on
Time-and-Materials    5a. The FEC should develop a communication
and                   and training plan to ensure that contracting                                   Open (Repeat finding)
Labor-Hour            personnel fully understand the requirements                                    Refer Finding 10. Lack of Guidance Related to
                                                                        Completed January 26, 2010
Contracts were not    of FAR as they relate to payments on Time-                                     Time and Materials and Labor-Hour Contracts on
Adequately            and-Materials and Labor-Hour Contracts.                                        page 31.
Supported

                      6a. The FEC Procurement Office should
6. Contract Close-
                      immediately institute formal contract close-
Out Procedures are                                                                                   Open (Repeat finding)
                      out procedures, and establish and implement
not Compliant with                                                      Completed January 26, 2010   Refer Finding 11. Contract Close-Out Procedures
                      adequate internal control over the contract
the FAR                                                                                              Are Not Compliant With the FAR on page 32.
                      administration process.




                                                         44

OIG 08-02 Performance Audit of Procurement and Contract Management
                                                                        Management Status August
Prior Finding         Prior Recommendation                                                             2010 Follow-up Audit Testing NFR
                                                                        2010
                      7a. The FEC should establish a formal project
                      review group to adhere to information
                      management technology reforms and federal                                        Open (Repeat finding)
7. Lack of            agency responsibilities consistent with the                                      Refer Finding 12. Lack of Adherence With
Adherence with        intent under the Clinger-Cohen Act.                                              Information Technology Management Reforms on
Information           Specifically, the project review group should:                                   page 34.
                                                                        Planned implementation April
Technology            • Develop a formal charter,
                                                                        2010
Management            • Include representatives across the agency
Reforms                  to include staff from OCFO, Budget and
                         Procurement areas; and
                      • Document key decisions to include
                         information technology priorities and retain
                         records of meeting minutes and decisions.
                      8a. The FEC should review FAR guidance on
8. Blanket Purchase   different procurement instruments, such as
Agreements Were       BPAs, and institute policies and procedures to                                   Open (Modified repeat finding)
Not Used in           ensure that the instruments are used as                                          Refer Finding 13. Blanket Purchase Agreements
                                                                        Completed January 26, 2010
Accordance with       prescribed. We also recommend that                                               Are Not Used in Accordance With FAR and OMB
FAR                   management obtain and review multiple bids                                       Guidance on page 36.
                      as part of the BPA procurement process.

                      9a. Implement procedures to ensure that
                      adequate documentation is maintained and
                      retained in the contract files. This process                                     Open (Modified repeat finding)
                      should be sufficient to enable supervisory        Completed January 26, 2010     Refer Finding 14. Procedures to Ensure Contract
                      review of the contract files to ensure                                           Files Are Complete Need Improvement on page 40.
9. Contract File
                      compliance.
Recordkeeping
Incomplete
                      9b. Ensure procurement files are adequately
                      stored in a manner that facilitates retrieval,
                      and that files are archived and destroyed
                                                                        Completed January 26, 2010     Closed.
                      according with its NARA approved record
                      schedule.




                                                         45

OIG 08-02 Performance Audit of Procurement and Contract Management
                                                                 Management Status August
Prior Finding     Prior Recommendation                                                        2010 Follow-up Audit Testing NFR
                                                                 2010
                  9c. Take the necessary steps to maintain
                  evidence of vendors’ CCR registration in the
                                                                 Completed January 26, 2010   Closed.
                  contract files.




                                                   46

                         Federal Election Commission
                           Office of Inspector General




Fraud Hotline
202-694-1015
                        or toll free at 1-800-424-9530 (press 0; then dial 1015)
                         Fax us at 202-501-8134 or e-mail us at oig@fec.gov
             Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463

Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to fraud, waste,
abuse, and mismanagement of agency programs and operations. Individuals who contact the OIG can remain
anonymous. However, persons who report allegations are encouraged to provide their contact information in the event
additional questions arise as the OIG evaluates the allegations. Allegations with limited details or merit may be held
in abeyance until further specific details are reported or obtained. Pursuant to the Inspector General Act of 1978, as
amended, the Inspector General will not disclose the identity of an individual who provides information without the
consent of that individual, unless the Inspector General determines that such disclosure is unavoidable during the
course of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                                    Together we can make a difference.
